HHS/OIG-Audit--"Operation Restore Trust Review of the Jeronme Feldnan Community Health Center, Orlando, Florida, (A-04-97-02137)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Review of the Jerome Feldnan Community Mental Health Center, Orlando, Florida," (A-04-97-02137)
January 30, 1998
Complete
Text of Report is available in PDF format (1.18 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Jerome Feldman Community Mental Health Center, located in Orlando, Florida, received reimbursement for partial hospitalization
services provided to Medicare beneficiaries. Our audit showed that the center did not meet the certification requirements
established under Sections 1916(c)(4) of the Public Health Service Act and 1861 of the Social Security Act. We also found
that 16 of the 20 beneficiaries in our sample were not eligible to receive partial hospitalization services, while no documentation
could be located for the other 4 beneficiaries, and that many of the services provided in Calendar Year 1996 failed to
meet Medicare coverage and reimbursement criteria. The center was unable to produce sufficient financial records to support
claimed reimbursement for administrative costs, which included inappropriate claims for transactions with related parties
and payments to facilities from which patient referrals were received. We also noted that the center was located in an
abandoned warehouse that had been previously condemned by local authorities due to a variety of unsafe and unsanitary conditions.
Based on the audit, the $2,554,314 paid to the center during its participation in the Medicare program was disallowed,
Medicare payments to the center were suspended with notice and the center's Medicare agreement was canceled. The results
of the audit were also referred for consideration of criminal prosecution.